HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at WillowBrooke Court at Southampton Estates,"(A-03-02-00205)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at WillowBrooke Court at Southampton Estates," (A-03-02-00205)
October 28, 2003
Complete
Text of Report is available in PDF format (362 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether WillowBrooke Court was in compliance with Federal
and State staffing laws and regulations for nursing homes.  Based on our review of 92 direct care employees, we found,
with minor exceptions, that WillowBrooke Court complied with Federal and State staffing laws and regulations.  For
six direct care employees, WillowBrooke Court did not comply with State background check requirements.  Although these
exceptions did not endanger the residents, we recommended WillowBrooke Court review and strengthen its internal controls
to assure that it obtains State background checks on all new employees and prohibits employees from working directly with
the residents if the background checks are not received within the required timeframes.